            Office of Inspector General




                                    March 31, 2004

                                    KEITH STRANGE
                                    VICE PRESIDENT, SUPPLY MANAGEMENT

                                    SUBJECT: Management Advisory – Contract Management
                                             for the Curseen-Morris Facility Cleanup and
                                             Modification
                                             (Report Number CA-MA-04-003)

                                    This report presents the results of our self-initiated review of
                                    contract management activities at the Curseen-Morris
                                    Processing and Distribution Center in Washington, D.C.
                                    (Project Number 03XR015CA000).

Results in Brief                    Overall, the Postal Service adequately managed contracts
                                    for the unprecedented cleanup and modification of the
                                    Curseen-Morris Processing and Distribution Center.
                                    Specifically, the contract statements of work did not contain
                                    duplicate tasks. In addition, the Postal Service implemented
                                    adequate internal controls to control costs and properly
                                    used and controlled appropriated funds.

Background                          Beginning in 2001, Congress appropriated and the
                                    President released $762 million1 to support the Postal
                                    Service’s overall efforts to respond to the biohazard threat
                                    from anthrax that faced the mail, employees, and the public.
                                    The Curseen-Morris Processing and Distribution Center was
                                    the first of three Postal Service facilities2 scheduled to be
                                    decontaminated, cleaned, and renovated. To accomplish
                                    this task, the Postal Service awarded ten contracts and
                                    used expedited contracting procedures when necessary.



1
  In November 2001, the United States President released $175 million from the Emergency Response Fund. In
January 2002, Congress funded and approved an additional $500 million; a supplemental appropriation in
August 2002 provided an additional $87 million.
2
  Curseen-Morris Processing and Distribution Center, Washington, D.C.; Trenton Processing and Distribution Center,
Trenton, New Jersey; and Morgan Station Processing and Distribution Center, New York, New York.

    1735 N Lynn St
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
Contract Management for the Curseen-Morris                                                            CA-MA-04-003
 Facility Cleanup and Modification


                                  The Postal Service performed cleanup and renovation of the
                                  facility under immense pressure because of concerns for
                                  public safety, employee welfare, and business impact. In
                                  addition, the events were so unprecedented the Postal
                                  Service had little baseline information on the remedial action
                                  or the effects of the cleanup on the building in terms of
                                  planning for renovation.

                                  Postal Service personnel from Engineering, Supply
                                  Management, Facilities, Finance, Employee Resource
                                  Management, and Legal, as well as Postal Service
                                  suppliers, were key to implementing the decontamination,
                                  cleanup, and renovation activities.

Objectives, Scope,                Our objective was to determine the adequacy of contract
and Methodology                   management for the unprecedented cleanup and
                                  modification of the Curseen–Morris Processing and
                                  Distribution Center in Washington, D.C. Specifically, we
                                  determined whether: (1) contract statements of work
                                  contained duplicate tasks, (2) internal controls were in place
                                  to control overall costs, and (3) appropriated funds were
                                  properly used and controlled. To achieve these objectives,
                                  we reviewed applicable laws and policies and procedures;
                                  and interviewed appropriate Engineering, Supply
                                  Management, Facilities, Finance, Employee Resource
                                  Management, and Legal personnel, as well as Postal
                                  Service suppliers.

                                  The scope of our review included ten contracts3 totaling
                                  $275.3 million4 identified from the Strategic National
                                  Automated Purchasing System (SNAPS) and Facilities
                                  Management System for Windows (FMS WIN) as
                                  decontamination, cleanup, and renovation of the
                                  Curseen-Morris Processing and Distribution Center.

                                  To determine if contract statements of work contained
                                  duplicate tasks, we reviewed and compared the statement
                                  of work for each contract and obtained explanations and
                                  documentation to confirm that the tasks differed. To review
                                  cost control measures, we analyzed each contract to
                                  determine the initial scope of work and associated costs and

3
 Of the ten contracts reviewed, six were for decontamination and cleanup and four were for renovation of the facility.
4
 This total, as of November 14, 2003, includes $268.8 million of appropriated funds and $6.5 million of Postal Service
capital investments and expenditures for both the Curseen-Morris and Trenton facilities.




                                                          2
Contract Management for the Curseen-Morris                                        CA-MA-04-003
 Facility Cleanup and Modification


                             reviewed subsequent modifications and work orders for
                             reasonableness. We also obtained and reviewed a sample
                             of invoices from each contract to verify that they were
                             properly certified. Finally, we interviewed contracting
                             officers and contracting officer representatives to determine
                             how contract activities were monitored and how costs were
                             controlled. To review use and control of appropriated funds
                             expenditures, we reviewed funding documents and
                             interviewed Facilities and Finance officials.

                             This review was conducted from August 2003 through
                             March 2004 in accordance with the President’s Council on
                             Integrity and Efficiency, Quality Standards for Inspections.
                             We discussed our conclusions and observations with
                             appropriate management officials and included their
                             comments where appropriate.

                             We relied on computer-processed data obtained from
                             SNAPS and FMS WIN to extract the universe of contracts
                             for decontamination, cleanup, and renovation of the
                             Curseen-Morris facility. We believe the computer-generated
                             data was sufficiently reliable for that purpose. We did not
                             rely on any computer-generated data to support the
                             opinions or conclusions in this report.

Prior Audit Coverage         The General Accounting Office (GAO) issued an audit
                             report, Capitol Hill Anthrax Incident: EPA’s Cleanup Was
                             Successful; Opportunities Exist to Enhance Contract
                             Oversight (Report Number GAO-03-686, dated June 4,
                             2003). This report concluded that overall, the agency had
                             used its contract effectively, but that it could improve some
                             areas of its contracting support. In addition, it revealed
                             inconsistencies in the Environmental Protection Agency's
                             cost oversight practices among regions.

                             The Office of Inspector General (OIG) issued a
                             management advisory report, Deployment Plans for
                             Acquired Irradiation Equipment (Report Number CA-MA-03-
                             006, dated March 20, 2003). This report concluded that
                             Postal Service officials periodically reported the expenditure
                             of appropriated funds in accordance with Office of
                             Management and Budget directives and did not incur any
                             additional cost related to storing the irradiation equipment.




                                               3
Contract Management for the Curseen-Morris                                         CA-MA-04-003
 Facility Cleanup and Modification



                             The OIG issued a management advisory report, Review of
                             Contracts Associated With Biohazard Threat (Report
                             Number CA-MA-02-002, dated March 29, 2002). This
                             report concluded that the Postal Service used deviated
                             purchasing procedures to award contracts as quickly as
                             possible in response to the biohazard threat, which was
                             consistent with findings from a prior review. It also identified
                             contract increases that lacked supporting documentation
                             and a payment to a supplier for work we were unable to
                             determine was provided as required. Management agreed
                             with our recommendations that contract officials document
                             the basis for important contract decisions, including
                             determinations of price reasonableness; audit costs incurred
                             by suppliers; and improve procedures for certifying invoices.

Contract                     Overall, the Postal Service adequately managed contracts
Management                   for the unprecedented cleanup and modification of the
                             Curseen-Morris Processing and Distribution Center.
                             Specifically, the contract statements of work did not contain
                             duplicate tasks. In addition, the Postal Service implemented
                             adequate internal controls to control costs and properly
                             used and controlled appropriated funds.

                             As part of its overall effort, the Postal Service provided
                             regular on-site program management to monitor activities at
                             the Curseen-Morris facility. The on-site program manager
                             reviewed the reasonableness of labor hours to ensure
                             accuracy of invoices prior to certification. Additionally, in
                             accordance with contract provisions, Postal Service
                             personnel requested incurred cost audits to verify accuracy
                             of billed costs and plan to request additional reviews prior to
                             final payment on the decontamination, cleanup, and
                             renovation contracts.

                             Finally, the Postal Service developed a tracking system to
                             segregate appropriated funds expenditures from Postal
                             Service capital investments and expenditures. Additional
                             modifications not necessarily resulting from the anthrax
                             attack, such as telecommunications wiring and bathroom
                             renovations were properly excluded from appropriated
                             funds.

Audit Comment                In an exit briefing on January 23, 2004, we advised Postal
                             Service management that although Postal Service officials



                                               4
Contract Management for the Curseen-Morris                                       CA-MA-04-003
 Facility Cleanup and Modification


                             from Engineering, Supply Management, Facilities, Finance,
                             Employee Resource Management, and Legal, as well as
                             Postal Service suppliers, were key to implementing the
                             decontamination, cleanup, and renovation activities, we
                             expressed concern that there was no central focal point
                             who was knowledgeable of all activities at the site. Postal
                             Service management indicated they too had recognized the
                             need for centralized management and oversight and
                             advised us of their intent to provide this centralized
                             facilitation for future emergency projects. They informed
                             us that a new functional area, Emergency Preparedness,
                             had recently been established and part of their responsibility
                             will be to provide centralized facilitation over emergency
                             projects such as the Curseen-Morris facility
                             decontamination, cleanup, and modification. Therefore,
                             we do not plan to pursue this issue.

Management’s                 Management was pleased with the report’s conclusions.
Comments                     Also, in a letter dated February 24, 2004, the vice president,
                             Emergency Preparedness, outlined the scope of the Office
                             of Emergency Preparedness and accepted the facilitation
                             role within the scope of its mission. Management’s
                             comments, in their entirety, are included in the appendix of
                             this report.

Evaluation of                Management’s comments are responsive to the conclusions
Management’s                 stated in the report.
Comments
                             We appreciate the cooperation and courtesies provided by
                             your staff during the review. If you have any questions, or
                             need additional information, please contact Lorie Siewert,
                             director, Supply Management and Facilities, at
                             (651) 855-5856, or me at (303) 925-7429.


                             /s/ Colleen A. McAntee

                             Colleen A. McAntee
                             Deputy Assistant Inspector General
                              for Financial Management

                             Attachment




                                               5
Contract Management for the Curseen-Morris                  CA-MA-04-003
 Facility Cleanup and Modification



                             cc: Richard J. Strasser, Jr.
                                 John A. Rapp
                                 Rudolph K. Umscheid
                                 Thomas G. Day
                                 Donna M. Peak
                                 Henry A. Pankey
                                 Joseph K. Moore
                                 Susan M. Duchek




                                               6
Contract Management for the Curseen-Morris           CA-MA-04-003
 Facility Cleanup and Modification


                   APPENDIX. MANAGEMENT’S COMMENTS




                                             7
Contract Management for the Curseen-Morris       CA-MA-04-003
 Facility Cleanup and Modification




                                             8
Contract Management for the Curseen-Morris       CA-MA-04-003
 Facility Cleanup and Modification




                                             9
